                The Tax Exempt and Government Entities
               Division Strategy for Abusive Tax Avoidance
                Transactions Needs Further Development

                                 September 2004

                       Reference Number: 2004-10-190




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    September 29, 2004


      MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                     ENTITIES DIVISION


      FROM:                          Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report – The Tax Exempt and Government Entities
                                     Division Strategy for Abusive Tax Avoidance Transactions
                                     Needs Further Development (Audit # 200410014)


      This report presents the results of our review of the Tax Exempt and Government
      Entities (TE/GE) Division’s Abusive Tax Avoidance Transaction (ATAT) Program. The
      overall objective of this review was to assess the adequacy of the TE/GE Division
      management’s efforts to stop ATATs within the TE/GE Division’s customer base.
      The ATATs present a formidable compliance challenge to the Internal Revenue Service
      (IRS). According to the Government Accountability Office,1 the United States
      Department of the Treasury loses up to $18 billion a year from the ATATs. If allowed to
      go on unimpeded, the ATATs could undermine voluntary compliance by reducing the
      level of trust that responsible taxpayers have in the integrity of the tax system. IRS
      management determined that the variety, size, and nature of tax shelters require an
      organized approach to detection, deterrence, and enforcement so that the use of
      abusive transactions can be stopped.
      In summary, TE/GE Division management has recently begun to develop a
      division-wide program to address ATATs within its customer segments. Prior to the
      division-wide program, most of the TE/GE Division functional offices independently
      developed their own processes to identify and address the ATATs and to communicate
      information about the ATATs to employees, customers, and other IRS offices. The
      functional offices were given the latitude to develop their own methodologies because of
      the belief that processes developed independently would better serve the extremely
      varied customer base and regulatory authority.
      However, the individual processes alone do not provide TE/GE Division management
      with the assurance that ATATs are being identified and addressed division-wide in
      accordance with the IRS’ and the Department of the Treasury’s strategy. We

      1
          Formerly the General Accounting Office.
                                           2


determined that the TE/GE Division needs to develop some common processes to
identify and reduce the ATATs within their customer base.
We recommended the Commissioner, TE/GE Division, provide the functional offices
with guidance in developing common processes to ensure a unified approach to
addressing the ATATs. This should include identifying the ATATs during and outside of
their normal work processing, identifying similar ATATs after known cases are identified,
communicating information about known or potential ATATs to others that have a need
to know, and tracking adequate management information so TE/GE Division
management can evaluate the success of their program.
Management’s Response: The Commissioner, TE/GE Division, agreed with our
recommendations and will provide additional guidance to TE/GE Division functional
offices to take better advantage of common processes. Specifically, the TE/GE Division
ATAT Executive Steering Committee will review the ATAT processes in place in each of
the TE/GE Division functions and identify those processes which, if uniformly applied
across the TE/GE Division’s entire customer base, will help identify and reduce ATATs
within the TE/GE Division’s jurisdiction; review existing TE/GE Division ATAT
communication programs and develop guidelines to ensure consistency and best
practices in communicating with employees, the other IRS operating divisions, and the
TE/GE Division’s client base; and adopt the use of the ATAT tracking database
developed by the Deputy Commissioner for Services and Enforcement. The database
will track information such as the number of ATATs identified and ATAT results from
examinations and determinations. Management’s complete response to the draft report
is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
           The Tax Exempt and Government Entities Division Strategy for Abusive
                 Tax Avoidance Transactions Needs Further Development




                                                Table of Contents


Background .............................................................................................. Page   1
A Division-wide Strategy Was Started, but Further
Development Is Needed to Identify and Address
Abusive Tax Avoidance Transactions ...................................................... Page                   3
         Recommendations 1 and 2: ...........................................................Page 22
         Recommendations 3 through 5:.....................................................Page 23

Appendix I – Detailed Objective, Scope, and Methodology...................... Page 24
Appendix II – Major Contributors to This Report ...................................... Page 26
Appendix III – Report Distribution List ...................................................... Page 27
Appendix IV – Management’s Response to the Draft Report ................... Page 28
        The Tax Exempt and Government Entities Division Strategy for Abusive
              Tax Avoidance Transactions Needs Further Development

                                Abusive Tax Avoidance Transactions (ATAT) are specific
Background
                                transactions or schemes that reduce tax liability by taking a
                                tax position that is not supported by the Internal Revenue
                                Code (I.R.C.) or manipulates the law in a way that is not
                                consistent with its intent. During the 1970s and 1980s an
                                explosion of tax shelters threatened not only revenue, but
                                also general taxpayer confidence in the Federal tax system.
                                Compared to the complexity and wide variety of the ATATs
                                that exist today, the early tax shelters were unsophisticated
                                and were aimed primarily at high-income individuals. The
                                Congress recognized the danger posed by these tax shelters
                                and enacted legislation to reduce their use.
                                Beginning in the 1990s, there was resurgence in the use of
                                the ATATs. However, these transactions are more complex
                                and sophisticated than the earlier ones and sometimes
                                involve international banking transactions. For example,
                                two abusive transactions that involve Tax Exempt and
                                Government Entities (TE/GE) Division customers are the
                                Producer Owned Reinsurance Companies (PORC) and
                                misuse of the Corporation Sole form of organization.
                                •     The PORCs are typically small insurance companies that
                                      meet certain criteria for tax-exempt status. Some United
                                      States retailers have established the PORCs to
                                      improperly route income earned from the sale of
                                      insurance contracts through the PORC to avoid paying
                                      taxes. These insurance companies are generally located
                                      outside the United States.
                                •     Corporation Sole organizations are improperly used as a
                                      one-person church that routes all of an individual’s
                                      personal financial activity through the church to avoid
                                      paying taxes.
                                The ATATs present a formidable compliance challenge to
                                the Internal Revenue Service (IRS). According to the
                                Government Accountability Office,1 the United States
                                Department of the Treasury loses up to $18 billion a year
                                from the ATATs. If allowed to go on unimpeded, the
                                ATATs could undermine voluntary compliance by reducing
                                the level of trust that responsible taxpayers have in the
                                integrity of the tax system. IRS management determined

                                1
                                    Formerly the General Accounting Office.
                                                                                       Page 1
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        that the variety, size, and nature of tax shelters require an
                        organized approach to detection, deterrence, and
                        enforcement so that the use of abusive transactions can be
                        stopped.
                        In March 2002, the IRS and the Department of the Treasury
                        developed a strategy to identify and deter promoters of
                        abusive tax transactions. These efforts include:
                        •   Vigorously enforcing the disclosure, registration, and
                            list maintenance requirements under
                            I.R.C. Sections (§) 6011,2 6111,3 and 6112.4
                        •   Identifying and notifying the public early about
                            questionable transactions.
                        •   Prioritizing the use of resources to identify promoters of
                            tax shelters and abusive transactions.
                        In addition, the IRS implemented transaction-specific task
                        forces to address different tax shelters.
                        The TE/GE Division has three primary functional offices to
                        support the needs of its distinct customer segments.
                        •   The Employee Plans (EP) function is responsible for
                            ensuring that employee and individual retirement plans
                            comply with the appropriate laws and regulations.
                        •   The Exempt Organizations (EO) function is
                            responsible for ensuring that organizations exempt from
                            Federal income tax comply with the I.R.C. and related
                            regulations.



                        2
                          26 U.S.C. § 6011 (2003) requires that any person made liable for any
                        taxes due as a result of income tax regulations shall file an appropriate
                        return or form as prescribed by law with the appropriate information as
                        requested on the return or form.
                        3
                          26 U.S.C. § 6111 (2003) requires that any tax shelter organizer shall
                        register the tax shelter with the Secretary of the Treasury not later than
                        the day on which the first offering for sale of interests in such tax shelter
                        occurs.
                        4
                          26 U.S.C. § 6112 (2003) requires that any person who organizes any
                        potentially abusive tax shelter, or sells any interest in such a shelter,
                        shall maintain a list identifying each person who was sold an interest in
                        such shelter and containing such other information as the Secretary of
                        the Treasury may by regulations require.
                                                                                            Page 2
          The Tax Exempt and Government Entities Division Strategy for Abusive
                Tax Avoidance Transactions Needs Further Development

                                  •   The Government Entities (GE) function is further
                                      divided into three offices to support the needs of its
                                      three distinct customer groups:
                                      ¾ The Federal, State, and Local Governments (FSLG)
                                        office is primarily responsible for tax compliance
                                        and outreach activity related to employment tax and
                                        informational reporting obligations of approximately
                                        88,000 Federal agencies, quasi-governmental
                                        entities, state agencies, and local governments.
                                      ¾ The Indian Tribal Governments (ITG) office is
                                        responsible for coordinating tax issues with 564
                                        Federally recognized Indian Tribes and their related
                                        business entities.
                                      ¾ The Tax Exempt Bonds (TEB) office is responsible
                                        for administering the Federal tax laws applicable to
                                        the tax-exempt bonds industry.
                                  This review was performed at the TE/GE Division
                                  Headquarters Offices in Washington, D.C.; the TE/GE
                                  Division’s EP, EO, and GE functional offices in
                                  Washington, D.C.; the EP Examinations Office in
                                  Baltimore, Maryland; and the EO Examinations Office
                                  in Dallas, Texas, during the period February through
                                  June 2004. The audit was conducted in accordance with
                                  Government Auditing Standards. Detailed information on
                                  our audit objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  TE/GE Division management has recently begun to develop
A Division-wide Strategy Was
                                  a division-wide program to address the ATATs within its
Started, but Further
                                  customer segments. Prior to the division-wide program,
Development Is Needed to
                                  most of the TE/GE Division functional offices
Identify and Address Abusive
                                  independently developed their own processes to identify and
Tax Avoidance Transactions
                                  address the ATATs and to communicate information about
                                  the ATATs to employees, customers, and other IRS offices.
                                  The functional offices were given the latitude to develop
                                  their own methodologies because of the belief that processes
                                  developed independently would better serve the extremely
                                  varied customer base and regulatory authority. However,
                                  the individual processes alone do not provide TE/GE
                                  Division management the assurance that the ATATs are

                                                                                          Page 3
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        being identified and addressed division-wide in accordance
                        with the IRS’ and the Department of the Treasury’s strategy.
                        TE/GE Division management initially participated on a
                        limited basis with the other three IRS operating divisions to
                        address the ATATs. They initially thought that the IRS
                        strategy to address the ATATs in the for-profit sector
                        generally did not apply to addressing abuse issues raised in
                        segments of the tax-exempt customer base. However, they
                        have since determined that their customers’ involvement in
                        the ATATs can take two forms: the use of a TE/GE
                        Division customer entity as a vehicle to facilitate tax
                        avoidance by other, taxable entities, as well as the direct
                        participation by a TE/GE Division customer entity in a tax
                        avoidance transaction.5
                        The following actions have been taken to address the
                        ATATs in the TE/GE Division customer base:
                        •   The Commissioner, TE/GE Division, designated the
                            Senior Technical Advisor (STA) in November 2002, as
                            the TE/GE Division representative on the Servicewide
                            ATAT Executive Steering Committee (ESC). In August
                            2003, the STA was assigned responsibility for
                            coordinating the ATAT activities within the TE/GE
                            Division. These responsibilities have continued to grow
                            and currently include disseminating information to
                            TE/GE Division functional offices, serving on the EO
                            and EP functional ATAT committees, and coordinating
                            and representing the TE/GE Division with other IRS
                            operating divisions.
                        •   The Commissioner, TE/GE Division, established the
                            TE/GE Division ATAT ESC in February 2004. The
                            TE/GE Division ATAT ESC provides a forum for:
                            ¾ Overseeing and sharing information regarding the
                              various ATAT initiatives within the TE/GE
                              Division.
                            ¾ Allowing the STA and other TE/GE Division
                              representatives to share information from the

                        5
                          In April 2004, the Department of the Treasury and the IRS exercised
                        their authority under the tax shelter regulations to specifically designate
                        a tax-exempt party as a “participant” in a tax avoidance transaction.
                                                                                           Page 4
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                               Servicewide Abusive Transaction (SAT) ESC
                               meetings.
                            ¾ Sharing best practices and important developments
                              from within the TE/GE Division.
                        •   The TE/GE Division Fiscal Year (FY) 2004 – FY 2005
                            Strategy and Program Plan, issued September 2003,
                            included the following operating priorities: develop
                            education and examination strategies to identify and
                            counter abusive ATATs in the EP functional office,
                            collaborate with the Department of Labor to prevent
                            abusive retirement transactions, establish an EO
                            functional office Fraud and Financial Transactions Unit,
                            combat abusive tax shelters and other abusive tax
                            schemes in the EO functional office, and develop
                            education and examination strategies to identify and
                            counter abusive tax schemes within the GE functional
                            office. Some of the initiatives in this plan have not yet
                            been implemented.
                        •   The IRS recognized the emerging concern with the
                            ATATs within the tax-exempt community in the
                            FY 2005 – FY 2009 Strategic Plan, issued June 2004,
                            which lists the following objective: “Deter Abuse within
                            Tax Exempt and Governmental Entities and Misuse of
                            such Entities by Third Parties for Tax Avoidance or
                            Other Unintended Purposes.”
                        Although these are good initial steps in developing an
                        approach to address the ATATs, we determined that the
                        TE/GE Division needs to develop some common processes
                        to identify and reduce the ATATs within their customer
                        base. These include the ability to:
                        •   Identify the ATAT indicators in their customer base
                            during normal processing.
                        •   Identify the ATAT indicators in other cases after known
                            cases are first identified.
                        •   Identify (proactively) new ATATs outside normal
                            processing.
                        •   Communicate the ATAT awareness to their staff,
                            customer base, and other operating divisions.

                                                                               Page 5
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        •   Track adequate information, such as the number of
                            ATATs identified, examinations completed, penalties
                            applied, tax-exempt status revoked, additional listed
                            transactions identified, etc., so TE/GE Division
                            management can evaluate the success of the program.
                        Some functional offices have developed several of the
                        needed processes; however, none of the TE/GE Division
                        functional offices have developed processes for all of the
                        above activities.
                        Most functional offices have some processes to identify
                        indications of the ATATs within their customer base
                        Regular work processes (e.g., examinations, determination
                        processing) and third-party referrals represent the largest
                        opportunity to identify indications of the ATATs in each of
                        the TE/GE Division’s functional offices. During regular
                        processing, TE/GE Division employees with the appropriate
                        skills6 and ATAT awareness may identify instances of
                        potential manipulation of the tax law or situations that may
                        need further research to determine if the transactions are
                        abusive. We determined four (the EP and EO functions and
                        the TEB and ITG offices) of the five functional offices have
                        some type of process in place to help identify indications of
                        the ATATs during normal work processing and by internal
                        and external referrals.
                        The following shows the processes that have been
                        implemented in these four functional offices and any
                        planned actions for improving the processes:
                        •   In the EO function, employees were made aware of
                            abusive filing characteristics during initial job training to
                            improve their ability to identify potential ATATs during
                            regular work processing. EO functional office
                            management advised that training to recognize ATATs
                            is essential since abusive organizations are generally
                            organized and operated in a manner that appears similar
                            to legitimate tax-exempt organizations.
                            ¾ Determination specialists review applications for
                              exemption to determine if organizations meet the

                        6
                         Employees with the appropriate skills include determination
                        specialists, field examination agents, and classifiers.
                                                                                       Page 6
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                              requirements for recognition as exempt from Federal
                              income tax. Touch-and-Go Procedures (TAG) were
                              created to identify determination cases early in the
                              process that may involve inconsistent application of
                              tax law or abusive filings. When abusive filing
                              characteristics are identified, the applications are
                              routed through the employees’ managers to
                              determination coordinators, who assesses whether
                              the case should be sent to the EO function ATAT
                              Committee for further evaluation.
                           ¾ Classifiers in the EO function Classification Unit
                             review all internal and external referrals to determine
                             if the issues should be examined. When indications
                             of abusive allegations are identified, classifiers use
                             techniques from a reference guide developed to help
                             identify potential ATATs during the classification
                             process. The guide provides examples of what
                             employees should look for to determine if cases have
                             the potential to be considered ATATs. If the cases
                             are determined to be ATATs, they are routed directly
                             to the EO function ATAT Committee for further
                             evaluation.
                           ¾ The EO function Field Examination agents review
                             records of exempt organizations to determine if they
                             merit continued exemption and to determine if the
                             exempt organizations are liable for other taxes. The
                             agents are trained to identify instances where tax
                             positions are not supported by the I.R.C. If
                             indications of abusive transactions are recognized,
                             the agents generally contact the field coordinators
                             and forward a copy of the case to the EO function
                             ATAT Committee. The agents will continue to
                             address the examination issues with guidance from
                             the EO function ATAT Committee.
                           The EO function ATAT Committee, established in
                           March 2004, serves as the central point to screen,
                           review, and track information on abusive transactions
                           and makes recommendations regarding how the cases
                           should be addressed. When other IRS divisions’
                           customers are also involved in the EO ATAT, the


                                                                             Page 7
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                            Committee coordinates with those divisions to ensure
                            that the ATAT issues are fully addressed.
                            EO function management plans to strengthen their
                            employees’ ability to recognize potential ATATs by
                            developing more in-depth, specific training for their
                            examiners and agents on how to identify indications of
                            current ATATs.
                        •   In the EP function, employees were made aware of
                            abusive filing characteristics to improve their ability to
                            identify potential ATATs during regular work
                            processing.
                            ¾ Determination specialists review applications of
                              retirement plans to ensure the forms of the plans
                              meet the qualification requirements of the I.R.C.
                              When abusive filing characteristics are identified,
                              the specialists contact a technical consultant if the
                              abusive characteristics indicate a listed transaction.7
                              Otherwise, the applications are routed to the EP
                              function ATAT Coordinator for further guidance.
                            ¾ Referral specialists in the EP function Classification
                              Unit review all internal and external referrals to
                              determine if the issues should be examined. When
                              abusive allegations are identified, they are routed to
                              the field for examination and the EP function ATAT
                              Coordinator is notified.
                            ¾ The EP function Examination agents review records
                              of employee plans to determine if they are operated
                              in accordance with the I.R.C. The agents are trained
                              to identify instances where tax positions are not
                              supported by the I.R.C. If indications of a listed
                              transaction are recognized, the agent discusses the
                              case with his or her manager, forwards pertinent case
                              information to the EP function ATAT Coordinator,
                              and contacts the technical consultant for the current
                              enforcement strategy. For other abusive indicators,


                        7
                          A listed transaction is a transaction that is the same as or substantially
                        similar to one that the IRS has determined to be a tax avoidance
                        transaction and identified by an IRS notice or other form of published
                        guidance.
                                                                                             Page 8
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                                 the agents provide pertinent information to the EP
                                 function ATAT Coordinator and continue to process
                                 the case.
                            The EP function ATAT Coordinator, established in
                            March 2004, makes the initial evaluation of the ATAT
                            referrals and is the central point of contact for the
                            ATATs in the EP function. After evaluation by the EP
                            function ATAT Coordinator, potential ATATs are
                            forwarded to the Issue Development Team for further
                            evaluation and development of recommendations to
                            address the ATAT throughout the customer base. Based
                            on the characteristics of the ATAT, the referral could be
                            forwarded to the SAT ESC, the Office of Chief Counsel,
                            or an EP function Development Team where a technical
                            advisor could be assigned to coordinate the resolution
                            strategy for the ATAT.
                        •   The TEB office employees were made aware of abusive
                            filing characteristics during formal job training to
                            improve their ability to identify potential ATATs during
                            regular work processing. The TEB office generally
                            considers an abusive bond transaction to be any bond
                            issuance that contains improprieties in the sale and use
                            of the bond that would justify applying civil penalties
                            under I.R.C. § 6700.8 These transactions are addressed
                            as part of the normal TEB workload. TEB management
                            advised that several multi-million dollar penalties have
                            been assessed against bond underwriters and counsel
                            involved in abusive transactions.
                            ¾ All information items/referrals are forwarded to the
                              Outreach, Planning and Review (OPR) office for
                              consideration. The managers of the OPR and Field
                              Operations (FO) offices have established a
                              Classification Panel to determine the examination
                              potential of each information item/referral. The
                              referrals selected are forwarded to the FO office


                        8
                          26 U.S.C. § 6700 (2003) penalizes any person who organizes or sells a
                        plan or arrangement and makes in connection therewith a statement
                        regarding the allowability of any deduction or credit, excludability of
                        income, or the securing of any other tax benefit that the person knows or
                        has reason to know is false or fraudulent as to any material matter.
                                                                                         Page 9
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                                   manager for further evaluation and can be surveyed9
                                   or assigned to an FO office group for examination.
                               ¾ The FO office manager can initiate an I.R.C. § 6700
                                 examination with concurrence of the Director, TEB.
                                 If the Director, TEB, determines there is a need for
                                 further consideration, the approval request is
                                 forwarded to and discussed by members of the TEB
                                 I.R.C. § 6700 Committee, which will either approve,
                                 deny, or hold (pending additional justification) the
                                 request to open an I.R.C. § 6700 examination.
                                   Requests for I.R.C. § 6700 examinations on bond
                                   promoters not materially involved in an open
                                   examination are reviewed by the TEB I.R.C. § 6700
                                   Coordinator (appointed in August 2002) and
                                   forwarded to the TEB Referral Committee for
                                   consideration. If a request is approved, the Director,
                                   TEB, is notified for concurrence 3 days prior to the
                                   request being forwarded to the FO office manager.
                                   During the 3-day waiting period, if the Director,
                                   TEB, determines there is a need for further
                                   consideration, the approval request will be
                                   forwarded to and discussed by members of the TEB
                                   I.R.C. § 6700 Committee.
                               Use of the TEB I.R.C. § 6700 Committee ensures
                               consistent application of the I.R.C. § 6700-penalty
                               investigations.
                        •      Indian tribes are not subject to income tax but could be
                               used as a third party of abusive schemes to evade/avoid
                               taxes. ITG office management’s focus regarding the
                               ATATs has been on the development and
                               implementation of an education and partnering effort
                               with Indian tribes to identify promoters and disseminate
                               information on schemes. The ITG office has
                               concentrated its efforts on educating tribes and making
                               them aware that they could be used to perpetrate the
                               ATATs.
                               In addition, the Director, ITG, established and assigned
                               a manager and 3 agents to the Abusive Detection and

                        9
                            A case is surveyed if it is not examined.
                                                                                 Page 10
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                             Prevention Team (ADAPT) in March 2004. The team
                             will address cases where the abusive transactions rise to
                             the criminal level and have the potential for expansion.
                             They have focused on addressing fraud issues, tax
                             shelter activities, 31 U.S.C.10 abuses, the use of tribal
                             entities to avoid proper reporting and oversight of
                             transactions, fuel excise tax and casino income abuses,
                             per capita payment schemes, and the selling of bogus
                             tribal memberships. The team will undertake
                             compliance actions to remedy identified noncompliance,
                             and will also be charged with undertaking preventative
                             actions to reduce growth of abusive schemes.
                             Currently, the ITG office has little ability to detect the
                             ATAT schemes through their limited customer data
                             because their customers do not file income tax returns.
                             Many abusive schemes use the tax-exempt status of
                             organizations such as tribal governments to evade or
                             avoid taxes on income. However, the ITG office has
                             performed limited computer data analysis to determine if
                             there are indications that their customers may be
                             participating in two types of abusive schemes.
                             ¾ Deferred Compensation Distributions – Distribution
                               of income from gaming to the tribal members is
                               taxable to the members if not distributed under
                               appropriate circumstances. This scheme involves
                               making distribution under fictitious circumstances to
                               avoid the payment of taxes. The distribution is
                               generally given in the form of a loan that does not
                               have to be repaid. The member is instructed to
                               purchase insurance that will repay the loan at death.
                             ¾ Employee Leasing – This scheme involves the tribes
                               entering into agreements to lease employees to avoid
                               paying employment tax.
                        •    The FSLG office has not implemented processes and has
                             not applied significant resources in an effort to identify
                             potential ATATs within their customer base; however,
                             they did inform us of the following.


                        10
                          31 U.S.C. (2002) refers to the part of the United States Code that
                        relates to Money and Finance.
                                                                                        Page 11
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                           ¾ The FSLG office has direct enforcement
                             responsibilities for employment tax issues. When
                             employment tax issues are identified as abusive
                             (e.g., if it is a listed transaction or by designation by
                             the Director, GE), the FSLG office is responsible for
                             identifying their customer’s role in the scheme and
                             examining the issue, including working with other
                             IRS operating divisions when necessary.
                           ¾ The FSLG office’s responsibility for issues other
                             than employment tax is to refer to the appropriate
                             IRS operating division any leads identified during
                             the course of their employment tax examinations.
                             The FSLG office specialists are to be alert to facts
                             that may suggest a government entity is engaged in
                             an ATAT as an accommodation party or otherwise
                             involved (i.e., lease-in lease-out [LILO] or sales-in
                             lease-out [SILO] transactions).
                              While these transactions do generate significant tax
                              benefits to taxable parties, the FSLG office
                              customers do not derive any Federal income tax
                              benefits. The FSLG office has made two referrals
                              regarding LILO/SILO transactions. These
                              transactions were discovered by field specialists and
                              forwarded to the FSLG office management. The
                              referrals were subsequently forwarded to another
                              IRS operating division.
                           ¾ The FSLG office management appointed the
                             manager, Outreach, Planning and Review (OPR), as
                             its ATAT Coordinator. At the time of our fieldwork,
                             a position description outlining the responsibilities
                             and duties of the position had not been developed.
                           ¾ The FSLG office management is developing
                             procedures for their specialists to follow if they
                             encounter an ATAT or an emerging issue that could
                             be considered abusive.
                           LILO transactions are now more prevalent than
                           originally thought and are a widespread concern.
                           According to a Department of the Treasury
                           spokesperson, these transactions involve billions of
                           dollars in assets and represent a substantial loss to the

                                                                               Page 12
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                             Department of the Treasury. The LILO transactions
                             involve an arrangement between government entities
                             and private companies, involving the sale or lease of
                             public facilities such as subways, bridges, stadiums, and
                             dams to private companies, in exchange for a fee paid by
                             a shelter promoter. A simultaneous arrangement is
                             made to lease the facility back to the government. This
                             allows the private business to claim large depreciation
                             deductions without assuming any risk of ownership.
                        Most functional offices have processes or the ability to
                        identify similar ATATs within their customer base
                        Once a potential ATAT is identified, the TE/GE Division
                        functional offices should have processes in place to identify
                        similar ATATs within their existing customer base and
                        current inventory. We determined that four of the five
                        functional offices (the EP and EO functions and the TEB
                        and ITG offices) have developed processes or took other
                        actions to help identify additional cases with characteristics
                        similar to those previously identified. However,
                        development of these processes should continue until all
                        functional offices within the TE/GE Division have the
                        ability to identify the ATATs with characteristics similar to
                        those previously identified.
                        •    The EO function uses its TAG procedures for
                             Determinations and Field Examinations to identify
                             similar ATATs within their customer base. After an
                             abusive transaction is identified, alerts are issued to EO
                             function managers to share with their specialists. Also,
                             a spreadsheet listing abusive cases is distributed
                             monthly.
                             In addition, the EO function took additional actions on
                             several occasions after the ATATs were identified in
                             their customer base. For instance, after determining that
                             certain I.R.C. § 501(c)(15)11 organizations (i.e., PORCs)
                             were being used in the ATATs, the EO function
                             established procedures to ensure that similar new


                        11
                          Under 26 U.S.C. § 501(c)(15) (2003), certain insurance companies are
                        granted tax exemption if they do not write life insurance policies and if
                        they do not write premiums in excess of $350,000 for the taxable year.
                                                                                       Page 13
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                             organizations that submit applications for tax-exempt
                             status met all of the requirements before approval.
                             The determination process was centralized for PORC
                             cases at their Headquarters Office and the applications
                             were reviewed by a core group of experienced legal
                             staff. In addition, the I.R.C. § 501(c)(15) Coordinating
                             Committee researched the Returns Inventory and
                             Classification System (RICS)12 database and selected
                             approximately 214 potential abusive cases for manual
                             classification and review. The Coordinating Committee
                             worked with representatives from other IRS operating
                             divisions to review the 214 cases. Twenty-six of the 214
                             cases were opened for examination to determine if the
                             organizations took a tax position not supported by the
                             I.R.C., or if they manipulated the tax law in a way that is
                             not consistent with its intent.
                             The EO function has established compliance teams for
                             four other categories of organizations where abuses have
                             been detected. The compliance teams are at various
                             stages of addressing the issues. They include the
                             following abusive areas:
                             ¾ Donor-Advised Funds – Organizations established
                               for the purposes of generating questionable
                               charitable deductions, providing impermissible
                               economic benefits to the donors and their families,
                               and providing management fees for the promoters.
                             ¾ Supporting Organizations (SO) – Organizations
                               established to make significant tax-deductible
                               contributions and maintain control of the money to
                               be used for personal purposes. For example, a
                               promoter or donor forms an SO and contributes
                               stock to it. The SO sells the stock and invests the
                               proceeds with what appears to be a legitimate
                               investment company, or loans the proceeds back to
                               the donor’s family business. In reality, the promoter
                               controls the investment company and, therefore,



                        12
                          The RICS is an IRS computer system that provides user access to
                        return and filer information related to the filing and processing of EP,
                        EO, and GE forms.
                                                                                         Page 14
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                                 maintains control of the money for personal
                                 purposes.
                             ¾ Housing and Urban Development (HUD) Program –
                               Organizations established to use proceeds from the
                               sale of HUD Program homes to inappropriately
                               benefit the principals of the organization instead of
                               using the proceeds to support its exempt purpose.
                                 One of HUD’s programs is to provide homes at a
                                 discount to tax-exempt organizations. The
                                 organizations can resell the homes for a profit as
                                 long as the proceeds from the sale go back into the
                                 organization to support the tax-exempt purpose.
                             ¾ Credit Counseling – Organizations that charge
                               excessive fees to low-income customers for debt
                               management services instead of providing education
                               on how to manage personal finances. The
                               organizations often charge excessive fees to the
                               debtor that only worsen the credit problems that
                               caused the debtor to turn to the counseling
                               organization in the first place.
                        •    The EP function developed a process to identify
                             transactions similar to the existing ATATs. They query
                             computer databases and poll the staff for open
                             examinations or determinations that may be similar to
                             existing employee plans or previously closed
                             determination applications identified to be potential
                             ATATs. For example, after the identification of a
                             potential ATAT related to I.R.C. § 412(i),13 the EP
                             function analyzed the RICS data and identified almost
                             8,000 Form 550014 and Form 5500-EZ15 returns that
                             contained an I.R.C. § 412(i) indicator. Guidance in the
                             form of an Interim Audit Guide and Examination Project
                             Guidance was issued to agents and a sample of 30 of
                             these cases was sent to the field for examination in
                             March 2004.


                        13
                           26 U.S.C. § 412(i) (2003) defines certain insurance contract plans as
                        they relate to qualified retirement plans.
                        14
                           Annual Return/Report of Employee Benefit Plan (Form 5500).
                        15
                           Annual Return of One-Participant (Owners and Their Spouses)
                        Retirement Plan (Form 5500-EZ).
                                                                                        Page 15
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                             After the S Corporation16 Employee Stock Ownership
                             Plan (ESOP)17 Effective Date18 abusive transaction was
                             identified, the EP function searched the determination
                             database and identified 20 approved plans similar to
                             previously identified abusive plans. TE/GE Division
                             management advised that guidance was issued to EP
                             function determination employees, providing criteria
                             about which ESOPs could be processed and closed, and
                             what to look for during determination application
                             processing. As a result, the practitioners who submitted
                             these plans withdrew the majority of them.
                             In another example, after the S Corporation ESOP
                             Management Company19 issue was identified, the EP
                             function performed a trend analysis and identified
                             1,275 S Corporation ESOPs with less than
                             10 participants. The EP functional office initiated a
                             compliance initiative for the issue. They canvassed their
                             examination groups and identified 31 open examinations
                             related to this issue. Additionally, the TE/GE Division
                             received a referral of 70 Management Company ESOPs
                             from the Large and Mid-Sized Business Division. The
                             compliance initiative was revised to sample the referred
                             cases, and in conjunction with the Small Business/
                             Self-Employed (SB/SE) Division, the highest risk cases
                             were selected for examination. The SB/SE Division is
                             responsible for the examinations of the U.S. Corporation
                             Income Tax Return (Form 1120), and the EP function is
                             responsible for examinations of the qualified plans.


                        16
                           S Corporations (formerly known as Subchapter S Corporations) are
                        pass-through entities that are generally exempt from Federal income
                        taxes. The shareholders, a maximum of 75, report the S Corporation’s
                        profit or loss on their individual tax returns.
                        17
                           An ESOP is a type of retirement plan organized by a corporation for
                        its employees. The contributions to this plan are invested in the
                        corporation’s stock.
                        18
                           Some ESOPs that hold employer securities in an S corporation were
                        being used for the purpose of claiming eligibility for the delayed
                        effective date (March 14, 2001) of 26 U.S.C. § 409(p) (2003).
                        19
                           When an ESOP owns an S Corporation, the profits of that corporation
                        generally are not taxed until the ESOP makes distributions to the
                        company’s employees when they retire or leave the job. The abusive
                        transactions move business profits of the S Corporation away from the
                        ESOP, so that the rank-and-file employees do not benefit.
                                                                                     Page 16
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                             Training for this issue was provided to the EP function
                             in May 2004.
                        •    The TEB office uses a commercial Municipal Bond
                             database to identify information on similar types of bond
                             issuances or information on bond issuances by the same
                             bond counsel, promoter, or underwriter after identifying
                             an initial abusive transaction. Use of the database
                             allows TEB office management to focus on a particular
                             firm or person who may be marketing abusive bond
                             transactions or to identify other municipalities that may
                             be participating in abusive bond transactions. The TEB
                             office also uses summons to obtain client lists from
                             promoters to identify the extent that the abusive
                             transactions were marketed.
                             The TEB office frequently contacts the Securities and
                             Exchange Commission (SEC) for information on
                             investigations that may have identified potential abusive
                             transactions.
                        •    The ITG office performs computer data analysis of
                             Indian tribal information to identify characteristics
                             similar to previously identified ATATs. For example,
                             they can use the database to search for tribes that
                             previously had high taxable income that decreased
                             substantially. This condition may indicate that the tribe
                             is involved in abusive schemes.
                        As stated previously, the FSLG office has not yet applied
                        any significant resources to the identification of ATATs.
                        Most functional offices do not have processes to identify
                        ATATs outside of their normal work processing

                        Most of the TE/GE Division functional offices do not have
                        processes to proactively identify20 the ATATs outside of
                        their normal work process. The proactive identification of
                        the ATATs is essential to help identify the ATATs that the
                        TE/GE Division may not yet be aware of (either existing
                        ATATs or emerging ones).


                        20
                          Proactive processes include reviewing and analyzing sources of
                        computer data or information outside of normal work processing and
                        coordinating with other industry groups to identify ATAT indicators.
                                                                                      Page 17
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        The only offices with processes to proactively identify
                        ATATs outside of their normal work process are the TEB
                        and ITG offices.

                        •    The TEB office management worked with the Florida
                             and Pennsylvania State Auditor Offices to identify
                             abusive transactions. In addition, TEB management
                             coordinates with other agencies and associations (e.g.,
                             the SEC, National Association of Securities Dealers,
                             Municipal Securities Rulemaking Board); reviews trade
                             publications and other media (e.g., The Wall Street
                             Journal, Internet, newspapers); and monitors Lexis
                             databases, tax returns, and examinations to proactively
                             identify the ATATs.
                        •    The ITG, along with other government agencies, is a
                             member of the Indian Gaming Workgroup. They meet
                             periodically to share information on emerging issues and
                             cases they are working. They also plan for the ADAPT
                             to work on issues where abusive schemes have impact
                             across multiple field group areas or involve extensive
                             interactions with enforcement functions/agencies inside
                             or outside the IRS. In addition, they plan to begin cross
                             matching Currency and Banking Retrieval System
                             (CBRS)21 data to other data to identify aberrations in the
                             filing patterns of Indian tribes, which may indicate
                             abusive transactions.
                        The EO and EP functional offices have plans to establish
                        processes to identify ATATs outside of their normal work
                        processing.
                        •    The EO functional office plans to establish the EO Data
                             Analysis Unit by September 2004 to identify trends
                             and/or potential compliance issues, including the
                             ATATs, through the use of the Internet, RICS, and other
                             databases. They also plan to establish the EO Fraud and
                             Financial Transaction Unit by April 2005 to address the
                             complex fraud and ATAT referrals and also provide
                             specialized expertise to law enforcement agents.

                        21
                           The CBRS is an on-line database that contains Bank Secrecy Act
                        information. It is standard procedure for IRS field agents to use the
                        system during tax fraud investigations and compliance probes.

                                                                                        Page 18
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        •   The EP function plans to establish a Compliance Unit in
                            FY 2005 to perform analysis to identify abusive scheme
                            “footprints” and trends. This will assist in defining
                            parameters for future projects.
                        The FSLG office has not established a process to
                        proactively identify ATATs from outside normal
                        processing.
                        Most functional offices have processes to communicate
                        information about known ATATs
                        Most of the TE/GE Division functional offices have
                        communicated abusive transaction information to their
                        employees, other IRS operating divisions, and to the public
                        (i.e., promoters and taxpayers). Communicating
                        information to employees about the TE/GE Division’s
                        overall strategy and the functional offices’ detailed
                        guidelines is essential to ensure consistency in addressing
                        the ATATs. Communicating with other divisions helps the
                        IRS overall in its efforts to address the ATATs IRS-wide.
                        In addition, informing the public helps prevent the use of the
                        ATATs by unsuspecting taxpayers and puts promoters and
                        taxpayers on notice that certain transactions have been
                        identified by the IRS as being abusive and will be subject to
                        scrutiny.
                        •   The EP and EO functional offices and the TEB office
                            use a variety of media to communicate with their
                            employees, other IRS operating divisions, and the
                            public. For example, all three functional offices depend
                            on their Intranet sites to communicate ATAT
                            information to their employees and all three use
                            presentations, publications, and the IRS Internet to
                            communicate with the public. Additionally, all three
                            functional offices provide information to the other IRS
                            divisions through meetings or reports.
                        •   The ITG office communicates the ATAT awareness to
                            Indian tribes through a regional newsletter and includes
                            information on the ATATs as part of its outreach efforts
                            in Title 31 and employment tax presentations. In
                            addition, the ITG office has plans to increase its
                            communication capabilities in the future. They recently
                            developed a web site that will be able to provide ATAT
                                                                              Page 19
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                            information to their employees and customer base in the
                            future. Also, the ADAPT is currently developing formal
                            internal and external communication strategies as one of
                            its initial tasks.
                        The FSLG office has not taken any significant actions to
                        communicate the ATAT information to either its customer
                        base or other IRS divisions. However, the FSLG office
                        management advised that they included a session at their
                        FY 2004 employee training on LILO/SILO transactions and
                        how to report such transactions if identified. In addition,
                        one news article on LILO/SILOs was included in a
                        newsletter to the FSLG office customers in June 2004.
                        The functional offices do not have a process to
                        systemically track the ATAT efforts
                        The functional offices within the TE/GE Division do not
                        track the information necessary to systemically determine
                        the extent of its efforts to address the ATATs, or the success
                        of its ATAT Program, in stopping or reducing abusive
                        transactions in its customer base. Current management
                        information systems do not provide complete ATAT
                        information such as the number of abusive transactions
                        identified, potential ATATs referred to the functional office
                        ATAT Coordinators, ATAT examinations completed,
                        penalties applied, tax-exempt status revoked, time applied
                        for the ATAT Program, the results of cases worked (the
                        number of cases that turned out to be ATATs and the
                        number that did not), and the future impact on stopping the
                        ATATs. To identify this information currently is labor
                        intensive, requiring ad-hoc analysis and manual data calls.
                        In prior attempts to determine the amount of resources
                        expended to address the ATATs, the TE/GE Division could
                        only provide speculative estimates. We determined that
                        three functional offices use the following processes to track
                        their ATAT related efforts:
                        •   The EP and EO functional offices currently use manual
                            processes (i.e. individual folders, spreadsheets, etc.) to
                            track known or potentially abusive transactions. They
                            both use the Audit Information Management System



                                                                               Page 20
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                             (AIMS)22 to track the status of examination cases and the
                             TE/GE Division Technical Time System23 (ETS) to track
                             the time applied to a case through the use of project
                             codes and activity codes. However, the codes currently
                             being used do not further define which case in a project
                             was ATAT related and how much time applied to an
                             activity was ATAT related.
                        •    The TEB office tracks examination time and results on
                             the AIMS. However, all I.R.C. § 6700 cases are tracked
                             on a spreadsheet within the OPR office. In addition,
                             TEB office employees track their time charged to
                             examine I.R.C. § 6700 cases by a designated activity
                             code on the TE/GE Division ETS.
                        Neither the ITG nor FSLG offices have processes for
                        tracking the ATAT related casework.
                        The TE/GE Division is taking action to improve its ability
                        to track resources expended on addressing abusive tax
                        avoidance transactions. The Director, Planning, TE/GE
                        Division, advised that the Division will institute new time
                        report codes and procedures beginning in October 2004 that
                        will allow the Division to track resources expended on the
                        ATAT work. These new procedures will capture employee
                        time applied to ATAT Examination cases, as well as the
                        ATAT related work outside the Division’s Examination
                        Program. For example, employees in the Division’s Rulings
                        and Agreement programs and Customer Education and
                        Outreach offices will use common codes to report their time
                        working the ATAT issues. These same codes will also be
                        used to track planning and monitoring activities as well as
                        case-related management and review activities associated
                        with the ATATs. While the new time reporting system will
                        track the resources spent throughout the TE/GE Division on
                        the ATAT Program, it will not capture all of the information
                        needed to evaluate the success of the Program in reducing
                        the ATATs.


                        22
                           The AIMS provides an automated inventory and activity control for
                        active examination cases.
                        23
                           The ETS is a software application that was developed in the early
                        1980's to automate the task of technical time reporting for the TE/GE
                        Division specialists.
                                                                                      Page 21
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        Because division-wide policies have not been established
                        for the five areas presented in this report and individual
                        functional offices independently developed their own
                        processes for addressing the ATATs, TE/GE Division
                        management does not have assurance the ATATs are being
                        adequately addressed or that the individual function’s or
                        office’s processes conform to IRS policy. Providing
                        division-wide direction will assure the proper priority is
                        given to developing processes to identify the ATATs, the
                        TE/GE Division’s overall strategy is communicated to all
                        employees to ensure consistency in addressing the ATATs,
                        and resources and accomplishments are tracked.

                        Recommendations

                        To ensure a unified approach to addressing the ATATs, the
                        Commissioner, TE/GE Division, should provide the
                        functional offices with guidance in developing the following
                        common processes:
                        1. Identifying the ATATs during the normal work
                           processing.
                        Management’s Response: The TE/GE Division ATAT ESC
                        will review the ATAT processes in place in each of the
                        TE/GE Division functions and identify those processes
                        which, if uniformly applied across the TE/GE Division’s
                        entire customer base, will help identify and reduce ATATs
                        within the TE/GE Division’s jurisdiction. Based on this
                        review, the ESC will make recommendations on guidance to
                        address the recommended process.
                        2. Identifying similar ATATs after known cases are
                           identified.
                        Management’s Response: The TE/GE Division ATAT ESC
                        will review the ATAT processes in place in each of the
                        TE/GE Division functions and identify those processes
                        which, if uniformly applied across the TE/GE Division’s
                        entire customer base, will help identify and reduce ATATs
                        within the TE/GE Division’s jurisdiction. Based on this
                        review, the ESC will make recommendations on guidance to
                        address the recommended process.


                                                                             Page 22
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                        3. Pro-actively identifying the ATATs outside of the
                           normal operating processes.
                        Management’s Response: The TE/GE Division ATAT ESC
                        will review the ATAT processes in place in each of the
                        TE/GE Division functions and identify those processes
                        which, if uniformly applied across the TE/GE Division’s
                        entire customer base, will help identify and reduce ATATs
                        within the TE/GE Division’s jurisdiction. Based on this
                        review, the ESC will make recommendations on guidance to
                        address the recommended process.
                        4. Communicating information about known or potential
                           ATATs to employees, their respective client base, and
                           other IRS divisions, as appropriate.
                        Management’s Response: The TE/GE Division ATAT ESC
                        will review, with the TE/GE Director of Communications
                        and Liaison, the existing TE/GE ATAT communication
                        programs and develop guidelines to ensure consistency and
                        best practices in communicating with employees, the other
                        IRS divisions, and the TE/GE Division client base.
                        5. Tracking adequate management information, such as the
                           number of ATATs identified, examinations completed,
                           penalties applied, tax-exempt status revoked, listed
                           transactions, etc., so TE/GE Division management can
                           evaluate the success of the program.
                        Management’s Response: The TE/GE Division
                        management will adopt the use of the ATAT tracking
                        database developed by the Deputy Commissioner for
                        Services and Enforcement. The database will track
                        information such as the number of ATATs identified and
                        ATAT results from examinations and determinations.




                                                                           Page 23
        The Tax Exempt and Government Entities Division Strategy for Abusive
              Tax Avoidance Transactions Needs Further Development

                                                                                    Appendix I


                     Detailed Objective, Scope, and Methodology

The objective of the audit was to assess the adequacy of the Tax Exempt and Government
Entities (TE/GE) Division management’s efforts to stop Abusive Tax Avoidance Transactions
(ATAT) within the TE/GE Division’s customer base. To accomplish this objective, we:
I.     Interviewed TE/GE Division management and reviewed appropriate documentation to
       determine the division-wide initiatives or processes for ensuring the ATATs are
       identified within TE/GE Division’s customer base and appropriately addressed.
       A.     Determined if the Senior Technical Advisor was coordinating with each of the
              TE/GE functional offices (Employee Plans [EP] and Exempt Organizations [EO]
              functions, and the Indian Tribal Governments [ITG], Tax Exempt Bonds [TEB],
              and Federal, State, and Local Governments [FSLG] offices) to detect, deter, and
              monitor known ATATs.
       B.     Determined the extent of TE/GE Division management’s efforts to coordinate
              with the other Internal Revenue Service (IRS) operating divisions (i.e., Large and
              Mid-Sized Business [LMSB] Division, Small Business/Self-Employed [SB/SE]
              Division, Criminal Investigation [CI] function, and Chief Counsel), IRS-wide
              Steering Committees/Tasks Forces, etc. to detect and deter the ATATs.
       C.     Determined if TE/GE Division management developed an overall strategy and/or
              guidance to detect and deter the ATATs.
II.    Interviewed management in each of the TE/GE functional offices (EP and EO functions,
       and the TEB, ITG, and FSLG offices) and reviewed appropriate documentation to
       determine their process or techniques to detect and deter the ATATs and the progress
       made to date.
       A.     Determined management’s actions taken to identify potential or actual ATATs.
       B.     Determined if management developed a technique to identify similar ATATs
              within their customer base after discovery of the initial abusive transaction.
       C.     Determined if management developed a technique to proactively identify new or
              potential ATATs.
       D.     Determined if management had a process to ensure that all known ATATs are
              timely communicated to revenue agents.
       E.     Determined if the Customer Education and Outreach offices (or similar offices)
              provided specific warnings about known ATATs to the public, potential
              promoters, and affected taxpayers through issuance of official notices and other
              media.
                                                                                         Page 24
 The Tax Exempt and Government Entities Division Strategy for Abusive
       Tax Avoidance Transactions Needs Further Development

F.   Determined if management had a process to communicate and coordinate within
     the TE/GE Division and, if applicable, with other IRS operating divisions (i.e., the
     LMSB and SB/SE Divisions, CI function, and Chief Counsel) and outside sources
     (e.g., state tax organizations, Department of the Treasury).
G.   Determined if management developed a technique to track the handling of known
     ATATs within their customer base after discovery of the initial abusive
     transaction.
H.   Determined if management developed a technique to track enforcement actions
     taken against known ATATs.




                                                                                 Page 25
        The Tax Exempt and Government Entities Division Strategy for Abusive
              Tax Avoidance Transactions Needs Further Development

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Nancy A. Nakamura, Director
Gerald T. Hawkins, Audit Manager
Allen L. Brooks, Lead Auditor
Margaret A. Anketell, Senior Auditor
Barry G. Huff, Senior Auditor
Andrew J. Burns, Auditor




                                                                                      Page 26
        The Tax Exempt and Government Entities Division Strategy for Abusive
              Tax Avoidance Transactions Needs Further Development

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Senior Technical Advisor, Tax Exempt and Government Entities Division SE:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 27
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development

                                                                Appendix IV

           Management’s Response to the Draft Report




                                                                       Page 28
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development




                                                                       Page 29
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development




                                                                       Page 30
The Tax Exempt and Government Entities Division Strategy for Abusive
      Tax Avoidance Transactions Needs Further Development




                                                                       Page 31
